HHS/OIG-Audit--"Review of the Effectiveness of the National Institutes of Health's Administration of the Small Business Innovation Research Program,
(A-15-98-00031)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Effectiveness of the National Institutes of Health's Administration
of the Small Business Innovation Research Program," (A-15-98-00031)
November 18, 1999
Complete Text of Report is available in PDF format
(2.87 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Since 1983, the National Institutes of Health (NIH) has provided $1.7 billion
in financial support to small business concerns to perform research projects
under the Small Business Innovation Research Program (SBIR). This final report
points out that the NIH does not ensure that all SBIR grantees comply with invention
reporting requirements found in regulations that require grantees to disclose
inventions and patents to the funding agencies. Also, the NIH does not evaluate
the success of its SBIR Program in commercialization of research. Measuring
such success or lack thereof should be an important management objective. Recommendations
call for actions the NIH needs to take to become more effective in protecting
intellectual property rights and improve administration of the SBIR program.